OFFICE OF INSPECTOR GENERAL
 for the Millennium Challenge Corporation



RISK ASSESSMENT OF
MILLENNIUM CHALLENGE
ACCOUNT CAPE VERDE’S
FINANCIAL OPERATIONS
REPORT NO. M-000-06-004-F
September 26, 2006




WASHINGTON, DC

                                            0
     Office of Inspector General 

        for the 

     Millennium Challenge Corporation


     September 26, 2006


     Mr. Michael Ryan 

     Vice President for Administration and Finance 

     Millennium Challenge Corporation 

     875 15TH Street, NW 

     Washington, DC 20005-2203 



     Dear Mr. Ryan:

     This report presents the results of the subject assessment. This was not an audit and as
     such we did not apply procedures to identify all conditions that may adversely affect
     Millennium Challenge Account (MCA) Cape Verde’s financial operations. In finalizing
     this report, we considered your written comments on our draft report and included those
     comments in their entirety in Appendix II of this report.

     This report contains three recommendations for corrective action. Based on your
     response to our draft report, we consider that a management decision has been reached
     on Recommendation No. 2; however, no management decision was reached for the
     remaining two recommendations. Final action for these recommendations must be
     determined by the Millennium Challenge Corporation (MCC) and we ask that we be
     notified of the MCC’s actions.

     We thank you, your staff, and the staff of the Millennium Challenge Account of Cape
     Verde for the cooperation and the courtesy extended to the Office of Inspector General
     Staff.

     Sincerely,


     /s/ 

     John M. Phee 

     Assistant Inspector General/MCC 





U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov                                                                              1
CONTENTS
Summary of Results                   1


Background                           2


      Assessment Objectives          3             


Discussion                           4


      Cash Management                5             


      Excess Cash Balances           6             


      Financial Reporting            7             


      Procurement                    8             


      Conclusion                     9         


      Recommendations                9         


Evaluation of Management Comments    11


Appendix 1 – Scope and Methodology   13


Appendix 2 – Management Comments     14





                                           2
SUMMARY OF RESULTS 

The Office of Inspector General (OIG) performed a risk assessment of the Millennium
Challenge Account (MCA) Cape Verde to evaluate and identify vulnerabilities in areas
that may adversely impact MCA Cape Verde’s financial operations. Based on our
understanding of MCA Cape Verde and the Millennium Challenge Corporation (MCC),
we decided to focus our effort on the cash management and procurement areas. The
risk assessment was performed during MCA Cape Verde’s implementation phase.

We assessed the risk associated with MCA Cape Verde’s cash management process as
medium to high. We determined that MCA Cape Verde needs to improve its process for
estimating “immediate cash needs”. “Immediate cash needs” refers to the minimum
amounts of cash needed for carrying out the purpose of the approved MCA Cape Verde
Compact programs. MCA Cape Verde maintained excess cash balances during the first
four quarters after the Compact’s “entry-into-force”1 which increased the risk that funds
could have been misappropriated.

We assessed the risk associated with MCA Cape Verde’s procurement as medium to
high. Based on our assessment, MCA Cape Verde implemented polices that complied
with the procurement guidelines established by MCA Cape Verde and the MCC.
However, we did have concerns with MCA Cape Verde’s policy of making cash
advances to contractors as interest-free loans for mobilization.

For its part, the MCC needs to (1) improve its process for reviewing and approving
requests for disbursements, (2) modify its advance process to disburse funds for
immediate cash needs only, and (3) provide additional guidance and oversight regarding
cash management and procurement to MCA Cape Verde and countries where compacts
are signed in the future.




1
 “Entry-into-force” is a term used to describe a signed compact once the country has met all
conditions precedent to the first disbursement being made.


                                                                                               1
BACKGROUND 

On July 4, 2005, the United States of America, acting through the MCC, signed a
Compact Agreement with the Government of Cape Verde to provide a grant of
approximately $110 million. The Compact “entered-into-force” on October 17, 2005. The
goal of the Compact is to reduce poverty and unemployment in Cape Verde by
encouraging private sector development and the implementation of agriculture and
infrastructure projects. The Compact is designed to address rural poverty and
unemployment through three projects to:

       •	 Increase agricultural productivity on the islands of Santo Antao, Fogo, and
          Sao Nicolau by improving water management and soil conservation;

       •	 Integrate internal markets and reduce transportation costs by improving roads
          and bridges on the islands of Santiago and Santo Antao, and by upgrading
          the Port of Praia; and

       •	 Develop the private sector by reducing obstacles to private sector investment
          and reforming the financial sector.

Specifically, the three projects to be funded under the Compact are the (1) Watershed
Management and Agriculture Support Project, (2) Infrastructure Project, and (3) Private
Sector Development Project.

       •	 The Watershed Project ($10.8 million over 5 years) supports activities to
          increase the capture, storage and distribution of rainfall water, thereby
          allowing poor farmers to irrigate their fields and increase agricultural
          productivity.

       •	 The Infrastructure Project ($78.7 million over 5 years) supports road and
          bridge development, and improvements to the Port of Praia.

       •	 The Private Sector Development Project ($7.2 million over 5 years) will focus
          on removing restraints to private sector development. The Government of
          Cape Verde, with the assistance of the International Finance Corporation
          (IFC), will focus on policy reforms and projects such as vocational training
          and education, human resource/entrepreneurship development, access to
          financial services, and small to medium-sized business linkages.

The Compact also includes approximately $13.3                  million   for   program
management, oversight, and monitoring and evaluation.

MCA Cape Verde is responsible for the oversight and management of the MCC
Compact. At the time of our assessment, MCA Cape Verde was establishing its
operational structure; the plans called for:

   •	 A steering committee to oversee MCA Cape Verde’s responsibilities and
      obligations under the Compact.




                                                                                     2
   •	 A management team responsible for implementing the MCC Compact and
      related programs.

   •	 A Procurement Review Committee to review the proposed procurements.

The management team will be composed of the following members: Managing Director,
Senior Economist, Administrative and Finance Director, Procurement Manager,
Monitoring and Evaluation Analyst, and four Project Managers (one manager with the
responsibility for each of the three project areas and the remaining manager for overall
coordination).

MCA Cape Verde contracted with the Ministry of Finance and Planning of the Republic
of Cape Verde to be the organization’s fiscal agent. In addition, MCA Cape Verde hired
a Procurement Manager, who will perform the functions of a procurement agent.


ASSESSMENT OBJECTIVES
The OIG performed a risk assessment of critical areas in MCA Cape Verde’s financial
operations to identify vulnerabilities that could adversely impact MCA Cape Verde’s
operations. Based on a preliminary assessment of MCA Cape Verde’s operations, we
determined that the most critical financial areas were cash management and
procurement. Therefore, our risk assessment was designed to identify and evaluate
vulnerabilities in those areas.




                                                                                      3
DISCUSSION 

We believe that the U.S. Department of the Treasury’s Financial Management Service
publications did not envision the inclusion of sovereign governments; however, the OIG
used the Treasury Financial Manual (TFM) as a valuable source of sound business
practices. The TFM is the Department of the Treasury's official publication for financial
accounting and reporting of all receipts and disbursements of the Federal Government.
The purpose of the TFM is to provide policies, procedures, and instructions for Federal
departments and agencies to follow in carrying out their fiscal responsibilities. In the
analysis of cash management and procurement, the OIG used the TFM as a source of
sound business practice.

At the time of our assessment, the MCC had made one cash disbursement to MCA
Cape Verde for $7.5 million. Contrary to Section 2025 of the TFM, this disbursement
exceeded MCA Cape Verde’s immediate cash needs. Immediate disbursement needs
should be in accord with the actual immediate cash requirements of the recipient
organization in carrying out the purpose of the approved program or project. Both MCA
Cape Verde and the MCC recognized later that this disbursement was in excess of Cape
Verde’s immediate cash needs for the first quarter. Therefore, in lieu of requesting
additional funds for the second quarter, MCA Cape Verde kept the funds initially
provided and requested that no additional funds be disbursed. Subsequently, the MCC
recognized that the funds provided in the initial disbursement were in excess of MCA
Cape Verde’s immediate cash needs for the second quarter as well. However, the
MCC did not request that the excess funds be refunded, as described in Section
2075.30 of the TFM.

In the area of procurement, MCA Cape Verde implemented procurement polices that
complied with the procurement guidelines established by MCA and MCC. However, we
did have concerns with MCA Cape Verde’s policy that could allow advance payments to
be made to its contractors as interest-free loans for mobilization. As a practice, MCA
Cape Verde would provide advance payments for 20 to 50 percent of the value of the
contract.

With respect to contractors, the procurement guidelines did not address making
advances to contractors, and the MCC had not provided instructions to MCA Cape
Verde regarding advances to contractors or secondary recipients, as described in TFM,
Section 2065.
The MCC has not adopted the following from The Treasury Financial Manual –Volume 1,
Part 6-Chapter 2000:

   •   Section 2025 – Limitation and Timing of Cash Advances,
   •   Section 2065 – Cash Advances Under Federal Grant and Other Programs,
   •   Section 2075.30 – Responsibilities of Federal Program Agencies, and
   •   Section 2075.30a – Interest Earned on Federal Funds.




                                                                                       4
Section 2025 of The Treasury Financial Manual –Volume 1, Part 6-Chapter 2000, states:
       Advances to a recipient organization will be limited to the minimum
       amounts necessary for immediate disbursement needs and will be timed
       to be in accord only with the actual immediate cash requirements of the
       recipient organization in carrying out the purpose of an approved program
       or project. The timing and amount of cash advances will be as close as
       is administratively feasible to actual disbursements by the recipient
       organization.
Section 2065 of The Treasury Financial Manual –Volume 1, Part 6-Chapter 2000, states:
       Advances made by primary recipient organizations to secondary
       recipients shall conform substantially to the same standards of timing and
       amounts as apply to advances by Federal program agencies to primary
       recipient organizations. Federal program agencies will require primary
       recipient’s organizations to develop procedures whereby secondary
       recipient organizations can obtain funds from the primary recipient
       organization as needed for disbursement.

Section 2075.30 of The Treasury Financial Manual –Volume 1, Part 6-Chapter 2000,
states:

       Federal funds should be promptly refunded to the Federal program
       agency and redrawn when needed if the funds are erroneously drawn in
       excess of immediate disbursement needs. The exceptions to the
       requirement for prompt refunding are when the funds involved will be
       disbursed by the recipient organization within seven calendar days or are
       less than $10,000 and will be disbursed within 30 calendar days. The
       exception is not intended to be construed as approval by Treasury for a
       recipient organization to maintain excessive funds.

Section 2075.30a of The Treasury Financial Manual –Volume 1, Part 6-Chapter 2000,
states:

       Any interest income earned by a recipient organization on Federal funds
       will be promptly refunded to the Federal program agency unless
       specifically prohibited by law.

A detailed discussion of how these vulnerabilities affect each financial area we reviewed
is presented in the following section of the report.



Cash Management
The MCC and MCA Cape Verde need to improve their cash management practices.
Contrary to the TFM, the MCC provided a cash advance to MCA Cape Verde that
exceeded MCA Cape Verde’s immediate cash needs. MCA Cape Verde’s immediate




                                                                                       5
cash needs are the minimum amounts of cash needed for carrying out the approved
MCA Cape Verde Compact programs. The MCC also allowed MCA Cape Verde to
maintain this excess cash balance during the first four quarters after MCA Cape Verde’s
entry-into-force. Because the MCC had not implemented the TFM cash management
requirements, it put its funds at greater risk for misappropriation.


Excess Cash Balances
At the time of our assessment (March 2006), MCA Cape Verde had received one cash
disbursement. During October 2005, MCA Cape Verde requested and received $7.5
million2 from the MCC to cover its expenses for the first quarter (from October 2005 to
December 2005). MCA Cape Verde established a special bank account and deposited
the funds as required by the Compact. As of December 31, 2005, MCA Cape Verde had
approximately $7.4 million in its account from this initial disbursement. Because MCA
Cape Verde had excess funds, MCA Cape Verde did not request a disbursement for the
second quarter (from January 1, 2006, to March 31, 2006). As of March 29, 2006, MCA
Cape Verde still had over $7.2 million remaining in its accounts from the initial
disbursement3. According to MCA Cape Verde officials, this represented $2 million in
excess of their immediate cash needs for the third quarter. When MCA Cape Verde
submitted its fourth Disbursement Request/Financial Report, it did not request funds for
its fourth quarter.

The MCC and MCA Cape Verde officials explained that $6.2 million of the $7.5 million
disbursement was requested to provide a 20 percent4 cash advance for the
infrastructure contracts, which were budgeted to cost approximately $25 million. These
contracts were scheduled to be awarded during calendar year 2005. However, at the
time of our fieldwork, these contracts had not yet been awarded, and the projected cash
needs had not materialized. Both the MCC and MCA Cape Verde acknowledged that
these funds exceeded MCA Cape Verde’s immediate cash needs. This situation
occurred largely because:

        •	 The MCC disbursed a cash advance to cover a 90-day period instead of the
           30-day period typically used by other Federal Government agencies.

        •	 Both the MCC’s process for reviewing and approving requests for
           disbursements and MCA Cape Verde’s process for cash forecasting were
           based solely on the fact that funds were included in the approved budget and
           not on an assessment of MCA Cape Verde’s immediate cash needs.

        •	 Neither the MCC nor MCA Cape Verde considered the status of the
           procurements and the additional requirements and, accordingly, did not have
           a clear idea of when the contracts would be awarded and when MCA Cape




2
  Of the $7.5 million, $.5 million was provided as “Working Capital Balance.”
3
  MCA Cape Verde documentation that we reviewed indicated that interest being earned on the
  MCC accounts containing the excess cash was being submitted to the MCC. As of July 20,
  2006, MCA Cape Verde had submitted approximately $179,000 of interest earned to the MCC.
4
  According to the MCC officials, the MCC actually provided advances equivalent to 25 percent of
  the estimated contract price instead of the 20 percent requested by MCA Cape Verde.
                                                                                               6
          Verde would have to fund the contracts. For example, in order to complete these
          procurements, (1) the procurements must be reviewed by the Procurement
          Review Committee (PRC); (2) a technical evaluation panel must review the
          proposals submitted; and (3) the MCC must provide a no-objection response to
          the proposed procurements once the procurements were reviewed and
          recommended by the PRC and the technical evaluation panel.

          •	 These were the first major procurements made by MCA Cape Verde; hence,
             no historical data existed to assist with establishing a timeline for completing
             the procurement process and, therefore, determining when MCA Cape Verde
             would need funds for the contract.

The MCC needs to:

          •	 Strengthen its process for reviewing and approving requests for cash
              disbursements.

          •	 Modify its advance process to disburse funds for immediate cash needs only.

          •	 Issue guidance that is consistent with the practices described in the TFM.

The OIG is not making a recommendation to address the MCC’s policy related to
disbursements for 90-day periods instead of the 30-day periods because this issue was
addressed in an audit of the MCC financial statements.5

For its part, MCA Cape Verde needs to strengthen its process for forecasting its cash
needs.



Financial Reporting
MCA Cape Verde does not perform accounting on an accrual basis, by recording
commitments or obligations. Because MCA Cape Verde maintains its accounts on a
cash basis instead of an accrual basis, unpaid expenses (liabilities) are not recorded in
the general ledger. The absence of these liabilities in the general ledger may result in
MCA Cape Verde not reporting all liabilities on its periodic financial statements used by
the MCC and others to determine their financial position.

While the cash basis of accounting may be acceptable for MCA Cape Verde, the MCC
needs to receive financial data prepared on an accrual basis or in a form that could be
readily translated into accrual-based data. The preparation of the MCC’s annual
consolidated financial statements (including data relating to MCAs) on an accrual basis
is required by 31 U.S.C. 3512(e), which states, “To assist in preparing a cost-based
budget under section 1108 (b) of this title and consistent with principles and standards




5
    Audit Report No. M-000-06-001-C, Audit of the Millennium Challenge Corporation’s Financial
    Statements, Internal Controls, and Compliance for the Period Ending September 30, 2005 and
    the Nine Month Period Ending September 30, 2004, dated December 6, 2005,
    Recommendation No. 3.

                                                                                                 7
the Comptroller General prescribes, the head of each executive agency shall maintain
the accounts of the agency on an accrual basis to show the resources, liabilities, and
costs of operations of the agency.” The MCC is currently working with the Certified
Public Accounting firm that is auditing the MCC annual financial statements to prepare a
policy and form for the MCAs to report the necessary accrual financial information.


Procurement

The MCC has not issued guidance to MCA Cape Verde regarding advances made to
secondary recipients/contractors. The principles, rules and procedures that govern the
conduct and administration of the procurement of the goods, works and services that
need to be acquired to implement the projects and programs under this Compact are set
out in:

       •	 The World Bank Guidelines: Selection and Employment of Consultants by
          World Bank Borrowers, May 2004.

       •	 The World Bank Guidelines: Procurement Under IBRD Loans and IDA
          Credits, May 2004 (World Bank Procurement Guidelines).

       •	 The Procurement Agreement between the MCC and MCA Cape Verde.

       •	 The Interim Fiscal Accountability Plan.        According to the MCC’s
          management, the Compact provided for the operation of MCA Cape Verde
          under an Interim Fiscal Accountability Plan, and a comprehensive Fiscal
          Accountability Plan (FAP) was being developed.

However, none of the guidance mentioned above specifically addresses advances to
recipients/contractors. Furthermore, the MCC had not provided guidance as described
in the TFM Section 2065, which states that advances made by primary recipient
organizations to secondary recipients shall conform substantially to the same standards
of timing and amounts as apply to advances by Federal program agencies to primary
recipient organizations. As a result, the practices of the MCC and MCA Cape Verde are
not consistent with the practices set forth in TFM Section 2065. Additionally, MCA Cape
Verde is increasing the risk that its funds may be misappropriated and interest lost on
the funds advanced to the contractors.

Contrary to practices described in TFM Section 2065, MCA Cape Verde’s policy allows
for making advances to contractors ranging from 20 to 50 percent of the total contract
value. According to the contracts we reviewed, these advances were provided 30 days
after a guarantee was provided by the contractor. No justification statement regarding
immediate cash needs or liquidation period was required. The contract stated that the
funds advanced were an "interest free loan."

At the time of our assessment, the largest contract signed by MCA Cape Verde was
valued at $11 million (999,419,857 Escudos, the local currency of Cape Verde) and
included a clause for total advance payment of “20% of the Accepted Contract Amount
payable in the currencies and proportions in which the Accepted Contract Amount is




                                                                                      8
payable,” approximately $2.2 million. We examined this area of advances and found the
following examples:

       •	 MCA Cape Verde’s contract for road construction dated April 3, 2006,
          provided for an advance payment of 20 percent of the contract value or
          approximately $2.2 million.

       •	 MCA Cape Verde’s contract for supervision of the construction on the roads
          dated March 30, 2006, provided for an advance payment of 30 percent of the
          contract value or approximately $258,000.

       •	 MCA Cape Verde’s contract for constructing walls and setting up the office
          dated January 5, 2006, provided for an advance payment of 50 percent of the
          contract value or approximately $7,000.


The MCC Compact with the Government of the Republic of Cape Verde has provisions
for $78.8 million for Infrastructure Projects. If MCA Cape Verde makes advances of 25
percent on all contracts awarded, the outstanding advances would be $19.7 million. The
potential interest income lost is calculated by multiplying 4 percent by $19.7 million,
which is $788,000.


Conclusion
Based on our preliminary assessment of MCA Cape Verde’s operations, the OIG
determined that the most critical financial areas were cash management and
procurement. We found that at the time of our fieldwork, MCA Cape Verde and the MCC
had not adopted the sound cash management guidance consistent with the TFM issued
by the Department of the Treasury, which the OIG used as a source of sound business
practice. We assessed the risk associated with cash management and procurement as
medium to high.




Recommendations
Based on a preliminary assessment of Millennium Challenge Account (MCA) Cape
Verde’s operations, the OIG determined that MCA Cape Verde’s risk in the area of cash
management and procurement is medium to high. Therefore, we are making the
following recommendations:

   Recommendation No. 1:          We recommend that the Millennium Challenge
   Corporation’s Vice President of Administration and Finance establish policies and
   procedures for evaluating disbursement requests submitted by Millennium Challenge
   Accounts (recipient countries) to ensure that the amounts disbursed are only for
   immediate cash needs. The policies and procedures should include a provision that
   funds identified as being in excess of immediate needs be promptly refunded by
   Millennium Challenge Accounts to the Millennium Challenge Corporation.




                                                                                     9
Recommendation No. 2:           We recommend that the Millennium Challenge
Corporation’s Vice President of Administration and Finance require that the
Millennium Challenge Accounts provide financial statements prepared on an accrual
basis or provide supplemental data to inform the Millennium Challenge Corporation
of accrued expenditures as of the end of the period.

Recommendation No. 3:         We recommend that the Millennium Challenge
Corporation’s Vice President of Administration and Finance provide policies and
procedures to Millennium Challenge Accounts on advances to secondary recipients.
The policies and procedures should include provisions that advances provided by the
Millennium Challenge Accounts:

       •	 Conform to the same standards of timing and amounts that are applied by
          Millennium Challenge Corporation to the Millennium Challenge Accounts.
       •	 Only be provided for immediate cash needs.
       •	 Be deposited by the secondary recipient in an interest-bearing account,
          with interest earned submitted to the Millennium Challenge Accounts.
       •	 Be promptly refunded to the appropriate Millennium Challenge Account
          office if identified as being in excess of immediate disbursement needs.




                                                                                10
EVALUATION OF
MANAGEMENT COMMENTS
The MCC provided written comments to our draft report that are included in their entirety
in Appendix II. The MCC agreed with one of the three recommendations in the draft
report.


For Recommendation No. 1, the MCC has not made a management decision
on this recommendation.

The MCC did not address the recommendation regarding the establishment of policies
and procedures for evaluating disbursements requests by MCAs to ensure the amounts
are disbursed for immediate cash needs. The MCC stated it is studying the portion of
the recommendation that states that amounts disbursed should only be for “immediate
cash needs.”

Furthermore, the MCC did not address the portion of the recommendation that the
policies and procedures should include a provision that funds identified as being in
excess of immediate cash needs be refunded.

The MCC Management concurred that “more explicit policies on the Review of
Disbursement Requests are appropriate”. The MCC established a working group
several months ago to generate “Standards of Review” that explicitly states what various
reviewing parties are responsible for. While the “MCC does not believe that any that any
of the Disbursement Request reviews have problems”, the MCC does believe “that the
Standards of Review policy will ensure that there are no gaps in the overall process and
that there are no misunderstandings by any of the reviewing departments as to their
responsibilities. The revised clearance framework and Standards of Review will be
finalized in September of 2006.”


For Recommendation No. 2, the MCC has made a management decision on
this recommendation.

The MCC concurred “with this recommendation, specifically the portion of the
recommendation that the Vice President for Administration require MCAs to provide
supplemental data to inform MCC of accrued expenditures as of the end of the period.”
The MCC had “already agreed with the Inspector General that for Fiscal Year 2006,
MCC will generate accruals for our end-of-year financial statements based on
supplemental information received from our sovereign grant recipients, and we are
currently in the process of obtaining this supplemental information.”




                                                                                      11
The MCC did not specifically identify the method by which the MCC would instruct
MCAs     to prepare and provide supplemental data to inform MCC of accrued
expenditures as of the end of the period for subsequent years (after September 30,
2006), but has informed the OIG that it is in the process of developing such a
methodology .


For Recommendation No. 3, the MCC has not made a management decision
on this recommendation.

The MCC concurred “that MCC should provide clear guidance on all issues related to
the implementation of MCA Compacts, including…the use of grant disbursements, and
the re-disbursement” of these funds.”       However, the MCC did not address the
recommendation’s components related to the MCAs re-disbursing funds in the form of
advances to secondary recipients.       The MCC cited the Principles of Federal
Appropriations Volume II Chapter 10 as the basis for its position.

Chapter 10 of Volume II of the Principles of Federal Appropriations includes a section
titled “Funds in the Hands of Grantee: Status and Application of Appropriation
Restrictions.” This section states “grant funds in the hands of a grantee are no longer
viewed as federal funds for certain purposes does not mean that they lose their
character as federal funds for all purposes . It has been held that the government
retains a “property interest” in grant funds until they are actually spent by the grantee for
authorized purposes. Further “It makes no difference whether the funds are paid to the
grantee in advance or by reimbursement…The holdings are based on the continuing
responsibility of the federal government to oversee the use of the funds.” The section
titled “Cash Management Concerns and Requirements” states that “One problem with
the advance funding of assistance awards is that the recipient may draw down funds
before they are actually needed…But there is another reason. When money is drawn
from the Treasury before it is needed, or is in excess of current needs, the government
loses the use of the money…premature drawdown not only profits the recipient, but does
so at the expense of …the taxpayer.”

The OIG believes that the advances provided by MCA to a contractor or a secondary
recipient must contain the same cash management criteria to which the MCC must
comply.




                                                                                          12
                                                                           APPENDIX I



SCOPE AND METHODOLOGY 

Scope

The Office of Inspector General (OIG) performed a risk assessment of MCA Cape Verde
financial operations. The purpose of the assessment was to evaluate and identify
vulnerabilities in areas that may adversely impact MCA Cape Verde’s financial
operations. This was not an audit and as such we did not apply all Government
Accounting Standards procedures to identify all conditions that may adversely affect
MCA Cape Verde’s financial operations. The risk assessment was conducted at MCA
Cape Verde’s headquarters in Praia, Cape Verde from March 28, 2006, to March 31,
2006. Following the assessment fieldwork performed in Cape Verde, the assessment
team consulted with MCA Cape Verde and the MCC in Washington from April, to July
2006.

Methodology

To gain an understanding of MCA Cape Verde operation and controls, the OIG
interviewed MCA Cape Verde, General Directorate of the Treasury, and MCC personnel.
The risk assessment focused on MCA Cape Verde’s financial operations from October
14, 2005, to March 28, 2006. We assessed transactions, policies, controls and
procedures in effect during this period. We judged risk exposure (i.e., the likelihood of
significant abuse, illegal acts and/or misuse of resources; failure to achieve program
objectives; and noncompliance with laws, regulations, and management policies) in the
areas of cash management and procurement. Using this information, we assessed the
level of risk (low, moderate, or high) for each of these key financial operations.

The general methodology for the risk assessment included the following:

  •	 Interviews of key MCC and MCA Cape Verde personnel in each of the areas
     assessed;
  •	 Reviews of the Compact agreement, sub-agreements and applicable laws and
     regulations;
  •	 Reviews of current MCC and MCA Cape Verde policies, procedures and
     processes;
  •	 Evaluations of transactions processed during the review period; and
  •	 Considerations of the MCC’s role in establishing and implementing MCA Cape
     Verde.

The risk assessment has the following limitations:

  •	 Higher risk exposure assessments are not a definitive indicator that objectives are
     not being achieved or that irregularities are occurring. Rather, a higher risk
     exposure implies that the particular function is more vulnerable to adverse events.

  •	 Because the assessments consider both internal and external factors, some of
     which are outside the span of control of management, risk exposure assessments,
     in isolation are not an indicator of management capability.


                                                                                      13
                                                                                            APPENDIX II




  MANAGEMENT COMMENTS
  MILLENNIUM 

  'CHALLENGE

  CORPORATION 




MEMORANDUM	                                                                           August 29, 2006

TO: 	             John Phee
                  Assistance Inspector General for the Millennium Challenge Corporation

 FROM: 	         Mike Casella 

                 Deputy Vice President for Administration and Finance 


 SUBJECT: 	       MCC Management Response to Recommendation from the Risk Assessment of MCA Cape
                  Verde's Financial Operations


The MCC appreciates the opportunity to respond to the text and recommendations of the report.

        Recommendation No. 1: We recommend that the Vice President of Administration and Finance
        establish policies and procedures for evaluating disbursement requests submitted by MCAs (recipient
        countries) to ensure that the amounts disbursed are only for immediate cash needs~. The policies and
        procedures should include a provision that funds identified as being in excess of immediate needs be
        promptly refunded by MCA to MCC.

  Management response:

The MCC partially concurs with this recommendation.

MCC concurs that more explicit internal policies on the review of Disbursement Requests ("Requests") are
appropriate. To that end, an internal working group was established several months ago to generate "Standards
of Review" that explicitly state what various reviewing parties are responsible for. In 2005, the MCC
documented a clearance framework requiring multiple levels of review of Disbursement Requests prior to any
MCC disbursements for any MCC Compact. That clearance matrix was updated in 2006 and the list of
authorized clearers is updated on a regular basis. Initially, MCC did not fully document procedures covering
which portions of the Disbursement Request needed to be reviewed by the various departments. While MCC
does not believe that any of the Disbursement Requests reviews have problems, we do believe that the
Standards of Review policy will ensure that there are no gaps in the overall review process and that there are no
misunderstandings by any of the reviewing departments as to their responsibilities. The revised clearance
framework and Standards of Review will be finalized in September of 2006.

MCC is studying the portion of the recommendation that states that amounts disbursed should be only for
"immediate cash needs". The report references Chapter 2000 the Treasury Financial Manual (TFM) and
recommends that MCC implement various sections of this chapter, including 2025, 2065 and
2075.30. However, MCC has researched the origins of Chapter 2000 and questions its applicability to our
grant activities. Moreover, the Comptroller General has issued a clear body of decisions regarding this issue
in Chapter 10 of Volume II of the Principles of Federal Appropriations, which clearly distinguish between
                                                                                                          14
the treatment of contracts and grants with respect to the general limitation on advances. These decisions
have focused on whether a particular disbursement is for appropriate grant purposes, rather than whether
they only cover immediate cash needs, and have approved grants in instances where the general rules
limiting advances to immediate cash needs would not have allowed the disbursement. Chapter 10 does
require that interest earned on grant funds pending their use for program purposes belongs to the federal
government, and the report correctly notes that any unused cash balance on hand with MCA-Cape Verde is
held in an interest bearing account and all interest earned is returned to the U.S. Treasury. We have
attached relevant portions of Chapter 10 to this response.

MCC believes that our current practice of disbursing funds to MCA-Cape Verde and our other sovereign
grant recipients based on review of quarterly disbursement requests, and disbursed in monthly tranches
based on the budgets and procurement plans of our grant recipients, meets the tests laid out in Chapter 10
and is consistent with the purposes of our grants that are specified in the Millennium Challenge Act of
2003. We are currently discussing our views on this issue with counsel at the Financial Management
Service and other relevant authorities and will develop a final position on this question in the near future.

We also have comments on specific points made or conclusions reached in the report on MCA-Cape
Verde's procurement practices:


    •	 The report implies that there was a fault in the review of the initial MCA-Cape Verde
       Disbursement Request due to the fact that the projected cash requirement at the time of the
       Request was at variance from the actual experience of MCA-Cape Verde's cash outlay over the
       period in question. This implication is in spite of recognition in the report that the original cash
       requirement projection of MCA-Cape Verde was built on the assumption that key construction and
       construction supervision contracts would be signed during the disbursement period. This was a
       reasonable assumption both at the time MCA-Cape Verde submitted its Request and when MCC
       approved the Request.

    •	 Subsequent to the transfer of grant funds under the request, MCC, in conducting its monitoring and
       oversight responsibilities of key procurements, concluded that the final stages of the procurements
       should be temporarily put on hold in order for MCA-Cape Verde to address issues in the
       documentation of the process as well as for MCA-Cape Verde's own internal review process to
       take place, due to the newness of both the processes and the organization carrying out the
       processes. Thus, the variance between projected and actual cash outflow of MCA-Cape Verde was
       a matter of timing differences, not arising from changes in underlying contractual obligations, and
       was due to decisions taken after the Request had been approved, not due to a fault in the review
       process itself.

Recommendation No. 2: We recommend that the Vice President of Administration and Finance require
that the MCAs provide financial statements prepared on an accrual basis or provide supplemental data
to inform MCC of accrued expenditures as of the end of the period.

Management response:

MCC concurs with this recommendation, specifically the portion of the recommendation that the Vice
President for Administration and Finance require MCAs to provide supplemental data to inform MCC of
accrued expenditures as of the end of the period. We have already agreed with the Inspector General that
for Fiscal Year 2006, MCC will generate accruals for our end-of-year financial statements based on
supplemental information received from our sovereign grant recipients, and we are currently in the process
of obtaining this supplemental information. This approach is similar to that followed by the Environmental
Protection Agency in order to generate accruals on grants provided to state governments.


                                                                                                            15
We do not believe that MCAs should be required to provide financial statements prepared on an accrual
basis. All MCC Compacts require that recipient countries follow internationally acceptable accounting
standards. The International Public Sector Accounting Standards Board (IPSASB), an international body
(that includes US membership) and generally recognized as an authoritative source for public sector
accounting, issues International Public Sector Accounting Standards (IPSAS) which explicitly provide that
cash based accounting is an acceptable method of accounting in the public sector. Thus, if a recipient
government follows IPSAS, it is in compliance with Compact requirements.

More importantly, MCC approaches issues, such as accounting standards, with the view that the
implementation of a Compact should reinforce the policies and practices of a recipient country when those
policies are consistent with sound public administration. In the instant case, when a country has adopted a
generally accepted international accounting standard, if MCC were to then reject that practice, this rejection
would undermine the policy framework of the recipient government.

In addition to the requirement that a recipient country follow internationally acceptable accounting
standards, the MCC does explicitly require that all MCA entities record and control on a commitment basis.
A commitment is not the equivalent of a legal obligation to make a payment based on the receipt of goods
and services, the general basis of recording an accrued expenditure. Rather, it is more analogous to a
reserve of budget resources and, as applied by the MCC, is generally recorded at the expected value of a
contract upon execution of the contract.

   This requirement recognizes that whatever accounting standards are used, there must be a system in
   place to assure that total MCC spending does not exceed funding. The report incorrectly states that
   MCA-Cape Verde does not record commitments. All financial reports required by MCC explicitly
   incorporate reporting on commitments and MCA-Cape Verde has been in compliance with these
   reporting requirements since entry into force.

Recommendation No. 3: We recommend that the Vice President of Administration and Finance provide
policies and procedures to MCAs on advances. The policies and procedures should include provisions
that advances provided by the MCAs:

      • Conform to the same standards of timing and amounts that are applied by MCC to the MCAs.
      • Only be provided for immediate cash needs.
      •	 Be deposited by the recipient in an interest-bearing account, with interest earned submitted to
         the MCAs.
      .. Be promptly refunded to the appropriate MCA office if identified as being in excess of
         immediate disbursement needs.


Management Response:

We partially concur with this recommendation.

Specifically, we concur that MCC should provide clear guidance on all issues related to the implementation
of MCA Compacts, including on the use of grant disbursements and the "redisbursement" of these funds.
MCC is in the final stages of issuing a guidance document that consolidates policies concerning allowable
costs of an Accountable Entity that can be funded with MCC Grants. These Cost Principles address many
of the questions that have been raised by our MCA counterparts during the early stages of implementation.

However, we question both the applicability and the impact of the specific recommendations on the timing
and the amounts of disbursements made by MCAs to contractors or sub-grantees. As discussed in our
response to Recommendation No. 1 above, Chapter 10 of Volume II of the Principles of Federal
Appropriations focuses on whether a particular disbursement is for appropriate grant purposes, rather than

                                                                                                           16
whether it only covers immediate cash needs. Chapter 10 applies this same test to instances where a grant
recipient further "re-disburses" grants funds to sub-recipients.

In the specific procurements by MCA-Cape Verde cited in the report, MCC believes that the re-
disbursements made for these procurements were consistent with this standard. MCC assistance is unlike
most other forms of U.S. foreign assistance in its requirement for Compact recipients to be the
implementers of MCC programs. The primary entities responsible for implementation—referred to as
MCAs in the report—are untested in the market place and there will naturally be a period before potential
bidders for Compact funded procurements of goods, services, and works understand the structure of the
MCA, its reliability as a customer, its history as a prompt payer of valid invoices, its exact relationship with
the US Government and its practice of not entering into obligations for which it does not have adequate
resources. The risk to the MCAs associated with being new entrants to the marketplace is that bidders will
either choose not to bid because of unfamiliarity and uncertainty or will factor in a higher perceived level
of risk in their financial proposals.

To minimize the uncertainty, the guidance provided by MCC to our MCA counterparts has been to
structure procurements in a manner that is consistent with industry standard practices, and to address the
lack of familiarity on the part of potential bidders. In the construction industry (the subject of the
procurements noted in the report), it is a standard practice to provide an upfront mobilization payment to
contactors in recognition of the need for contractors to mobilize equipment and labor (often long distances)
and to prepare to perform under the contract. In fact, the contract language that the report cited in reference
to this mobilization payment was modeled directly on standard contract language used for World Bank
funded works contracts, deliberately used to reinforce to the marketplace that this contract followed
standard donor funded project practices.

Section 609(b)(l)(I) of the Millennium Challenge Act requires that an MCC Compact contain "a
requirement that open, fair, and competitive procedures are used in a transparent manner in the
administration of grants or cooperative agreements or the procurement of goods and services for the
accomplishment of objectives under the Compact." In order to carry out the intent of these legislative
provisions, the overriding principle MCC uses in its guidance on procurements conducted with MCC grant
funds is to maximize competition to the greatest extent possible. The principle of competition reinforces
other key aspects of sound public sector procurement including transparency and fairness.

Based on the above points, MCC believes that the procurement practices that MCA Cape Verde followed,
based on our procurement agreement with Cape Verde, are consistent with the specific authorities provided
by and grant purposes defined in the Millennium Challenge Act, and therefore are consistent with the
decisions of the Comptroller General discussed above. As noted in our response to Recommendation No. 1,
we will continue to discuss our views on this matter with relevant authorities in order to arrive at a final
position on this issue.

We also have comments on specific recommendations made or conclusions reached in the report on MCA-
Cape Verde's procurement practices:

    •	   The report does not discuss the fact that MCA-Cape Verde required a bank guarantee to secure the
         mobilization payments in the event of non-performance, which mitigates the risk of providing a
         payment early in the construction process.

    •	 The report does not make a distinction between cost-based contracts and fixed- price lump-sum
       contracts. In the former, the contract provides for reimbursement of allowable costs and payments




                                                                                                             17
are directly tied to the incurrence of costs by the contractor. In the latter, the contract is a fixed
price for the delivery of specific goods, works, or services and the costs faced by the contractor are
irrelevant to the contract. Accordingly, references in the report to matching payments to costs of
the contractor are not applicable in a fixed-price lump-sum contract.

•         The report concludes that providing a payment not directly tied to a cost represents a cost
of money based on a market interest rate, characterized as a loss of interest. However, if a payment
schedule is known at the time of a request for proposals, potential bidders, who also understand
the time value of money, will be able to factor into their financial proposals their own perceived
cash flow and, if the payment schedule provides for a payment in excess of their incursion of cash
outflow, will be compelled to reduce their overall financial bid by an appropriate discount rate in
order to try to have the most competitive overall bid. Thus, one can conclude that any cost of
funds incurred by MCA-Cape Verde due to a payment prior to incursion of costs by the contractor
is offset by a more advantageous overall financial proposal as a result of the contractor seeking to
best its competition in the bidding process. This phenomenon is dependent on strong forces of
competition, again reinforcing MCC's desire to assure that competition is at the core of all MCA
procurement processes.




                                                                                                   18
U.S. Agency for International Development 

       Office of Inspector General 

       1300 Pennsylvania Ave, NW 

          Washington, DC 20523 

           Tel: (202) 712-1150 

           Fax: (202) 216-3047 

            www.usaid.gov/oig



                                              19
